CERTIFICATE OF SERVICE
No. TBD
Anthony Vetri
Petitioner,
v.
United States of America
Respondent.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Anthony Vetri Petition for Writ of Certiorari, by mailing three (3) true and correct copies of
the same by Fedex 2 Day, postage prepaid for delivery to the following addresses:
Jeffrey B. Wall
Solicitor General
United States Department of Justice
950 Pennsylvania Ave, NW.,
Suite 5614
Washington, DC 20530-0001
(202)514-2217
supremectbriefs@usdoj .gov
Counselfor United States ofAmerica

Lucas‘DeDeus

January 20, 2021
SCP Tracking: Vetri-Cover White

